Audit Report



Return to the USDOJ/OIG Home Page




Office of Justice Programs, Office for Victims of Crime, Crime Victim Compensation for 9/11 Attack on America, Grant Awarded to California Victim Compensation and Government Claims Board, Grant Number 2003-RF-GX-0002, Sacramento, California

Report No. GR-90-04-018


September 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Crime Victim Compensation for 9/11 Attack on America (9/11 Program) grant awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Office for Victims of Crime (OVC) to the California Victim Compensation and Government Claims Board (the Board) located in Sacramento, California.  The purpose of this grant was to provide funds to the State of California for victim compensation to the victims of the 9/11 Attack on America.

As of December 27, 2002, the Board was awarded a total of $2,350,000 to provide compensation including loss of support to surviving descendants of a deceased victim; mental health counseling for family members; and peer support meetings for family members of those killed in the terrorist attacks, for survivors of the attacks, and for California urban search and rescue workers.  We tested the Board's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant. 

Our audit found that there were significant internal control issues related to the grant.  In addition, we found transactions that were inadequately supported or were unallowable.  As a result, we question $295,730 in grant funds received.1   In brief we found:

The Board commingled funds of three grants in one general ledger account.

	The Board claimed reimbursement for $15,730 in expenditures that were not grant-related. 

	The Board claimed reimbursement for $280,000 in payments that were un-allowable under the grant.

	The Financial Status Reports did not accurately reflect the activity on the grant.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix II.



Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix I for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.